<html>
<title> - THE RAW SEWAGE OVERFLOW COMMUNITY RIGHT-TO-KNOW ACT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
           THE RAW SEWAGE OVERFLOW COMMUNITY RIGHT-TO-KNOW ACT

=======================================================================

                                (110-78)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 16, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



                     U.S. GOVERNMENT PRINTING OFFICE

38-516 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               RICHARD H. BAKER, Louisiana
EDDIE BERNICE JOHNSON, Texas         FRANK A. LoBIONDO, New Jersey
GENE TAYLOR, Mississippi             JERRY MORAN, Kansas
ELIJAH E. CUMMINGS, Maryland         GARY G. MILLER, California
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
LEONARD L. BOSWELL, Iowa             HENRY E. BROWN, Jr., South 
TIM HOLDEN, Pennsylvania             Carolina
BRIAN BAIRD, Washington              TIMOTHY V. JOHNSON, Illinois
RICK LARSEN, Washington              TODD RUSSELL PLATTS, Pennsylvania
MICHAEL E. CAPUANO, Massachusetts    SAM GRAVES, Missouri
JULIA CARSON, Indiana                BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California

                                  (ii)




            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

GENE TAYLOR, Mississippi             RICHARD H. BAKER, Louisiana
BRIAN BAIRD, Washington              JOHN J. DUNCAN, Jr., Tennessee
DORIS O. MATSUI, California          WAYNE T. GILCHREST, Maryland
JERRY F. COSTELLO, Illinois          VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
BRIAN HIGGINS, New York              GARY G. MILLER, California
RUSS CARNAHAN, Missouri              ROBIN HAYES, North Carolina
JOHN T. SALAZAR, Colorado            HENRY E. BROWN, Jr., South 
MAZIE K. HIRONO, Hawaii              Carolina
HEATH SHULER, North Carolina         TODD RUSSELL PLATTS, Pennsylvania
HARRY E. MITCHELL, Arizaon           BILL SHUSTER, Pennsylvania
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
STEVE KAGEN, Wisconsin               CONNIE MACK, Florida
JERRY MCNERNEY, California, Vice     JOHN R. `RANDY' KUHL, Jr., New 
Chair                                York
ELEANOR HOLMES NORTON, District of   CHARLES W. BOUSTANY, Jr., 
Columbia                             Louisiana
BOB FILNER, California               JEAN SCHMIDT, Ohio
ELLEN O. TAUSCHER, California        CANDICE S. MILLER, Michigan
MICHAEL E. CAPUANO, Massachusetts    THELMA D. DRAKE, Virginia
GRACE F. NAPOLITANO, California      JOHN L. MICA, Florida
MICHAEL A ARCURI, New York             (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Baer, Katherine, Director, River Advocacy, American Rivers, 
  Washington, D.C................................................    11
Grumbles, Hon. Benjamin H., Assistant Administrator for Office of 
  Water, United States Environmental Protection Agency...........     3
Lipp, Ph.D., Erin K., Associate Professor, Department of 
  Environmental Health Science, University of Georgia............    11
Shafer, Kevin L., Executive Director, Milwaukee Metropolitan 
  Sewerage District, Milwaukee, Wisconsin........................    11
Summers, Dr. Robert, Deputy Secretary, Maryland Department of the 
  Environment....................................................     3
Whitford, R.S., Stuart S., Water Quality Program Manager, Kitsap 
  County Health District, Bremerton, Washington..................     3

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Baker, Hon. Richard H., of Louisiana.............................    22
Costello, Hon. Jerry F., of Illinois.............................    25
Kagen, Hon. Steve, of Wisconsin..................................    27
Mitchell, Hon. Harry E., of Arizona..............................    29
Oberstar, Hon. James L., of Minnesota............................    32
Salazar, Hon. John T., of Colorado...............................    36

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Baer, Katherine..................................................    39
Grumbles, Hon. Benjamin H........................................    57
Lipp, Erin K.....................................................    71
Shafer, Kevin....................................................    78
Summers, Dr. Robert M............................................    84
Whitford, R.S., Stuart S.........................................    99

                        ADDITIONS TO THE RECORD

American Public Health Association, National Association of 
  Boards of Local Health, National Association of County and City 
  Health Officials, Physicians for Social Reponsibility, written 
  statement......................................................   102
American Rivers, Clean Water Action, Environmental Defense 
  Natural Resources Defense Council, National Wildlife Federation 
  Physicians for Social Responsibility, Republicans for 
  Environmental Protection, Sierra Club, U.S. PIRG, written 
  statement......................................................   103
American Rivers, ``What's in Your Water? The State of Public 
  Notification in 11 U.S. States,'' report.......................   105
American Water Works Association, written statement..............   146
California Association of Sanitiation Agencies, Catherine Smith, 
  Executive Director, written statement..........................   153

[GRAPHIC] [TIFF OMITTED] 38516.001

[GRAPHIC] [TIFF OMITTED] 38516.002

[GRAPHIC] [TIFF OMITTED] 38516.003

[GRAPHIC] [TIFF OMITTED] 38516.004

[GRAPHIC] [TIFF OMITTED] 38516.005

[GRAPHIC] [TIFF OMITTED] 38516.006

[GRAPHIC] [TIFF OMITTED] 38516.007



     HEARING ON THE RAW SEWAGE OVERFLOW COMMUNITY RIGHT-TO-KNOW ACT

                              ----------                              


                       Tuesday, October 16, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
           Subcommittee on Water Resources and Environment,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:40 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Timothy H. 
Bishop [Member of the Subcommittee] Presiding.
    Mr. Bishop. The Committee will come to order. Today the 
Subcommittee will hold a hearing on the importance of public 
notification of sewer overflows such as those provided in the 
Raw Sewage Overflow Community Right-to-Know Act.
    Open notification of sewer overflows is an important topic 
that has not received the attention it rightly deserves. I 
would agree with the suggestions of our witness from the 
Milwaukee Metropolitan Sewerage District that the best way to 
avoid human health and environmental concerns for the sewer 
overflows is to ensure that they never occur in the first 
place.
    I am proud that the first Subcommittee markup of the new 
majority was to approve legislation to restore the Federal 
commitment to our Nation's wastewater infrastructure. With 
documented needs of between $300 to $500 billion for wastewater 
infrastructure improvements nationwide, the cost of repairing 
and replacing our Nation's infrastructure is daunting and will 
not be successful without increased Federal support.
    It should come as no surprise that reauthorization of the 
Clean Water State Revolving Fund is one of this Committee's 
highest priorities. However, that is only half the story 
because even with significant increases in investment sewer 
overflows will likely continue to occur. Therefore, it is 
equally imperative that we provide our citizens with 
comprehensive and timely notification of sewer overflows.
    The Environmental Protection Agency's own numbers on annual 
sewer overflows are staggering. For combined sewer systems, EPA 
estimates 850 billion gallons of raw or partially treated 
sewage is discharged annually into local waters. For separate 
sanitary sewer systems, EPA estimates that between 23,000 and 
75,000 SSOs occur per year in the United States, discharging a 
total volume of 3 to 10 billion gallons per year.
    These discharges, laden with potentially harmful chemicals, 
pathogens, viruses and bacteria, often wind up in local rivers 
and streams, city streets, parks or, in unfortunate cases, 
directly into people's homes. We need to make sure that the 
public is aware of sewer overflows to give individuals the 
opportunity to stay out of harm's way. It makes no sense for 
certain owners and operators of local sewage agencies to know 
where and when overflows are occurring but to avoid making this 
information readily available to the public. This defies common 
sense.
    I was pleased to read the testimony of three of our 
witnesses here this afternoon which discuss their individual 
State and local governmental experiences providing enhanced 
public notification of sewer overflows. As these witnesses will 
later describe, enhanced public notification of sewer overflows 
is a common sense measure to protect public health and the 
environment, that one can be achieved without a significant 
burden to State and local governments.
    Notification of sewer overflows provides the public the 
greatest opportunity to avoid direct contact with potentially 
harmful chemicals, pathogens, viruses and bacteria as well as 
facilitates rapid response to overflows in order to minimize 
the potential harm to the environment.
    We need to replicate these success stories across the 
Nation. This is the premise behind the common sense legislation 
that I, Mr. LoBiondo and many of my Committee colleagues have 
introduced and hopefully something that we can unanimously 
approve through this Subcommittee in the near future.
    I am pleased now to yield to my colleague, Mr. LoBiondo, 
the co-sponsor of our bill for his opening statement
    Mr. LoBiondo. Thank you, Congressman Bishop. And I would 
like to repeat my thanks once again for you allowing me to join 
in with you in sponsoring this very important legislation.
    Earlier this year there were about 250,000 gallons of 
partially treated sewage that leaked from the Asbury Park, New 
Jersey sewage treatment plant into the Atlantic Ocean, 
threatening beach goers for miles downstream, or down the shore 
as we would say. It was a result of a broken pipe that went 
undetected for over 6 hours. Fortunately no one got sick and 
the environment did not suffer any long-term consequences, but 
that is not always the case.
    Congressman Bishop, as you just mentioned in your opening 
statement, the EPA estimates approximately 850 to 900 billion 
gallons of untreated sewage enter our waterways each year, 
sickening nearly 3.5 million people annually. The bacteria, 
parasites and other microorganisms in sewage can cause very 
serious and lasting disease and have in some cases even caused 
death for those who unknowingly came in contact with it. Over 
700 combined sewer overflow systems and other aging sewer 
infrastructures are the primary culprit.
    Fortunately, we passed legislation through the House that 
provides billions in grants and loans and guarantees to help 
rebuild these systems over the next decade. But something needs 
to be done in the short term. That is why I was especially 
pleased to join with you, Congressman Bishop, to introduce the 
H.R. 2452, the Raw Sewage Overflow Community Right-to-Know Act. 
It is a common-sense piece of legislation that will keep the 
public safe from waterborne illnesses, requiring sewer 
operators to put into place monitoring systems that detect 
overflows and to promptly notify the public.
    While some State and localities have strong notification 
programs in place, the majority do not. Establishing a minimum 
Federal standard is the right thing to do. I look forward to 
working with all of my colleagues to have this be a reality, 
and once again thank you for holding this hearing.
    Mr. Bishop. Thank you very much, Mr. LoBiondo. Since we are 
late in getting started and some of our witnesses have travel 
commitments, I am going to ask my colleagues on both sides of 
the aisle to refrain from making opening statements and submit 
their comments for the record. I also ask unanimous consent to 
include in the hearing record a statement from the American 
Waterworks Association and a statement from the California 
Association of Sanitation Agencies.
    Without objection, so ordered.
    We will now proceed to our first of two panels. Panel I is 
comprised of the Honorable Benjamin H. Grumbles, a frequent 
visitor to our Committee. He is the Assistant Administrator for 
Office of Water, Environmental Protection Agency. Dr. Robert 
Summers, who is the Deputy Secretary of the Maryland Department 
of the Environment. And Mr. Stuart Whitford, who is the Water 
Quality Program Manager for Kitsap County Health District in 
Bremerton, Washington.
    Mr. Grumbles, we will begin with you and, as always, we 
will accept your full comments for the record. We would ask you 
to limit your testimony to 5 minutes.

     TESTIMONY OF THE HON. BENJAMIN H. GRUMBLES, ASSISTANT 
ADMINISTRATOR FOR OFFICE OF WATER, UNITED STATES ENVIRONMENTAL 
   PROTECTION AGENCY; DR. ROBERT SUMMERS, DEPUTY SECRETARY, 
MARYLAND DEPARTMENT OF THE ENVIRONMENT; AND STUART S. WHITFORD, 
   R.S., WATER QUALITY PROGRAM MANAGER, KITSAP COUNTY HEALTH 
                DISTRICT, BREMERTON, WASHINGTON

    Mr. Grumbles. Thank you, Mr. Chairman, Members of the 
Subcommittee. It is an honor to appear before you on behalf of 
EPA to testify on an extremely important and challenging 
subject. And that is the goal we all share, and that is to 
eliminate or reduce the number of sewer overflows, to increase 
reporting and recordkeeping and public notification.
    So, Mr. Chairman, I commend you and your colleagues for 
getting this discussion going, to drawing attention to the 
subject, having the proposed legislation, and giving us all a 
chance to look for ways to advance the ball forward on 
increased reporting, recordkeeping and public notification.
    I would like to emphasize a couple things. One is the 
critical importance of prevention, taking steps, investing in 
infrastructure, managing those assets wisely to reduce the 
possibility of overflows, leaks and spills in the first place, 
but when they do happen, to follow up with strong regulatory 
consequences through permitting programs and enforcement. And 
then, thirdly, to emphasize the growing importance of green 
infrastructure, relying on not just the gray infrastructure, 
the concrete, the bricks and the mortar, but the wetlands, the 
stream buffers, the vegetation in the watershed to help reduce 
storm water pollution problems and sewer overflows.
    Your legislation emphasizes the importance of 
recordkeeping, public notification and reporting. We, too, at 
EPA share these goals. When it comes to CSOs, we issued a CSO 
policy. Congress codified it, so it is now in the Act, at 
section 402(q), and it requires for CSOs public notification 
and reporting.
    We also have, when it comes to SSOs, we have a regulatory 
framework under the existing Clean Water Act programs that 
emphasize the importance of reporting and recordkeeping to the 
permitting authorities. A very important step the agency took 
in August of this year was to issue a draft guidance document, 
a fact sheet for sanitary sewer overflows which embraces the 
concepts that you, too, are embracing and provides specific 
guidance to permit writers to ensure that there is immediate 
reporting and public notification when it comes to sanitary 
sewer overflows.
    As you and your colleagues have pointed out, this is a 
significant issue locally and nationally, given the number of 
combined sewer overflows and the number of sanitary sewer 
overflows and the potential public health risk and 
environmental impact. So the draft policy fact sheet that we 
issued in August is an important supplement to provide permit 
writers with more tools to work at the local level to increase 
public notification, recordkeeping and reporting.
    Mr. Chairman, I think a very laudable aspect of your 
legislation is that it understands and recognizes that in order 
to increase investment in infrastructure and pollution 
prevention there needs to be an emphasis put on public 
notification and reporting and recordkeeping. We have an 
existing regulatory framework and policies that we are looking 
at. And Mr. Chairman, we will commit to work with you and your 
colleagues as you continue to consider legislation amendments 
to the Clean Water Act. We will gladly work with you to find 
ways that are cost effective, that put a premium on increased 
reporting, recordkeeping and public notification.
    I also want to emphasize another important component of the 
EPA strategy when it comes to sewer overflows, and that is 
enforcement. We all recognize that working together, 
establishing common management frameworks, as we did earlier 
this year with national utilities on maintenance and operation 
of their facilities, but we all recognize that there are times 
when overflows, spills, leaks occur and there should be 
regulatory consequences. Our enforcement program at the agency 
has put this as one of its top priorities over the last decade.
    Wet weather overflow events is an enforcement priority. The 
agency has entered into over 50 judicial settlement agreements 
and orders. It represents, I counted up, over $13 billion in 
long-term investments by communities across the country in 
infrastructure systems. And I can assure you that as you work 
on public notification and other aspects of the sewer overflow 
challenge we will continue to put a priority on enforcement 
when the law is violated. And that is an important statement to 
make as the Clean Water Act is celebrating its 35th anniversary 
supplementing public notification and pollution prevention with 
strong enforcement. And that is entirely appropriate when we 
are talking about raw sewer overflows or combined sewer 
overflows.
    Mr. Chairman, thank you for the opportunity to testify. I 
look forward to answering questions.
    Mr. Bishop. Thank you very much, Mr. Grumbles. Dr. Summers.
    Mr. Summers. Thank you very much. It is an honor to be here 
today. Thank you for asking me to testify about Maryland's 
experience with this overflow reporting. I commend the opening 
remarks. I think in Maryland we agree with everything that has 
been said so far regarding this very critical issue.
    I am the Deputy Secretary of the Department of Environment, 
but I have worked for the Department of Environment for 25 
years on the Chesapeake Bay restoration, most recently, for the 
last 7 years as the Director of the Water Management 
Administration. So I have direct--I had direct responsibility 
for this particular issue within Maryland.
    Of course, overflows are a very significant public health 
and environmental concern. We have heard about the various 
pathogens that cause public health issues. But in Maryland we 
are particularly concerned with the Chesapeake Bay. And there 
are a number of different constituents that also impact our 
water quality. These significant impacts, obviously 
contamination of drinking water supply is a very critical 
issue. There are large areas in Maryland where there are 
impairments due to bacterial contamination, and this is 
affecting some drinking water supplies. We have closures of 
fishing and swimming, beach closures and so forth, fish kills, 
overall water quality degradation. A very important issue in an 
area like Baltimore City, the spills impact our parks and 
playgrounds and other public use areas which are located near 
streams.
    The benefits of reporting and public notification we have 
already heard a little bit about. They certainly protect the 
public from contact with the impaired waters, ensure that local 
health officials are aware and are dealing with the issues. It 
decreases inquiries from the media and the public. We found 
that proactive reporting actually has been a tremendous benefit 
to our local governments and other owners and operators of 
sewage systems.
    It has already been mentioned it builds public support for 
infrastructure improvements. Maryland is the host to several of 
the orders that Mr. Grumbles just mentioned. Baltimore City, 
Washington Suburban Sanitary Commission, Baltimore County, we 
have very significant infrastructure expenditures that need to 
be made. The reporting increases the likelihood of timely 
response by the owners and it improves the analysis of the 
cause of the problem and leads to more rapid repairs and fixing 
of whatever the particular issue might be, which definitely 
gives a capital cost benefit to the local government involved.
    In Maryland we began requiring reporting as of October 2000 
with a directive from the Director of Water Management 
Administration. That same year the Governor appointed a task 
force in upgrading sewer systems to look at the cost in 
financing of the necessary repairs. Of course that is a huge 
future issue and we strongly support the increases in Federal 
funding for the State Revolving Loan Fund and other programs to 
assist State and local governments with this critical issue.
    But public education is also a critical component because 
none of these improvements can be made without payments by the 
local governments generally requiring rate increases. And we 
found that the public notification, the public education 
definitely helps in that area.
    This was followed with specific legislation in 2001 and we 
have very detailed regulations as to the implementation of 
these requirements. Since the inception of recordkeeping in 
2001 over 11,000 reports of spills, 2.7 billion gallons, the 
figures show how the breakdown between combined sewer overflows 
and sanitary sewer overflows look. This is around 380 million 
gallons a year of spilt sewage in Maryland.
    This graphic just shows our historical data on this issue. 
You will notice the peak discharges in 2003, 2004 and 2005. And 
it is tailing off in 2006 and 2007. I would like to say this is 
because we have got our systems repaired, but the fact is it is 
wet weather related. We had very wet years in 2003 and 2004, 
and I think what we are seeing here is a ramping up of 
reporting capability and the tailing off due to dry weather. 
And you can see a similar pattern for sanitary sewer overflows.
    Making this information available to the public is 
absolutely critical and we have all of these reports posted on 
the Web and certainly appreciate the opportunity to tell you a 
little bit about it. I can say with great certainty that local 
officials, local public works directors are very supportive of 
this effort. In fact, the Director of the Bureau of Wastewater 
in Baltimore City, which is under a consent decree and is in 
the process of spending over $900 million to repair their 
system, says that this has been extremely beneficial to the 
city's efforts to make the necessary improvements to their 
system.
    Thank you.
    Mr. Bishop. Thank you very much, Dr. Summers. We have a 
vote on right now. There is about 10 minutes left in that vote. 
And that will be followed by two others. So Mr. Whitford, we 
will go to you now. If you could complete your testimony within 
the 5 minutes. And then we will go to vote, and then we will 
reconvene as soon as we are done voting.
    So Mr. Whitford.
    Mr. Whitford. Good afternoon. My name is Stuart Whitford. I 
am the Water Quality Program Manager in Kitsap County. Kitsap 
County is a peninsula due west of Seattle, in case you guys 
don't know where that is. A very beautiful area surrounded by 
about 220 miles of marine shoreline, 28 lakes or so, probably 
58 perennial streams. So we are very interested in protecting 
those resources from spills, and we have been doing a pretty 
good job of that since 1992.
    Since 1992, the Health District and wastewater utilities in 
Kitsap County have been cooperatively implementing sewage spill 
reporting and response procedures. The purpose of these 
procedures is to prevent public exposure to sewage spills 
through public information and notification. This is extremely 
critical in Kitsap County, given the miles of shoreline we have 
and approximately 44,000 recreational shellfish harvesters that 
we have on our beaches year-round.
    Since 1992, 208 sewage spills have been reported to us, to 
me, totaling about 11 million, 11.3 million gallons of raw 
sewage and about a half a billion or over a half a billion of 
combined sewer overflows. That is a staggering amount of sewage 
that has been discharged through our local surface waters.
    The procedures that we have require that wastewater 
utilities immediately notify the districts when a sewage spill 
or combined sewer overflow occurs. It also requires the utility 
to notify property owners in the immediate vicinity of the 
spill, post a warning sign at the spill site and clean-up to 
the maximum extent possible.
    The Health District visits the site typically within 1 to 8 
hours to verify the information supplied, verify that the 
clean-up was done correctly and assess the need for additional 
public notification. This public notification may include 
additional door-to-door work that we do, and we have done that 
in the past quite a bit when we need to get to people right up 
front.
    We will also post warning signs throughout the affected 
area and issue advisories. Advisories are issued either by a 
press release or by a press release updating Internet home 
page, and we also have a water quality hotline that we update 
on a regular basis. If we have a commercial shellfish growing 
area present, we notify the State Department of Health 
immediately through a pager system if it is after hours.
    A recent sewage spill in Kitsap County highlights the need 
for this bill. At 1:30 p.m. on June 27, 2007, the City of Port 
Orchard reported a sewage spill to the district. They reported 
that a small spill occurred when a gravity main plugged, 
forcing sewage out of a manhole onto the surface of the ground. 
The area was fairly overgrown with vegetation so it appeared to 
city personnel that the spill was relatively small. Personnel 
proceeded to remove the plug and they applied lime in the 
immediate vicinity of that spill to control odors, soak up the 
remaining liquid and inactivate any pathogens that might be 
there. As we always do, we visited the site that afternoon and 
verified that the main had been restored to service and the 
immediate area had been cleaned up.
    However, our inspector observed a fairly steep drop-off 
just below the manhole and decided to push further into the 
brush, just to make sure that no sewage had made it down the 
hill. What he saw was shocking--a 15-foot wide swath of gray 
slime oozing down the hill with all the vegetation and trees 
standing lifeless. Unable to continue from up there he decided 
to get down below the area. He found a dirt access road 
downslope from the main that led to a city sewer pump station, 
private pond and wetlands. As he approached the stormwater pond 
the smell of sewage overcame him, and he called me on the phone 
and told me so. When he reached the perimeter fence he could 
see that the entire pond was filled with sewage. This pond was 
approximately 100 feet long by 50 feet wide and probably 
between 15 and 20 feet deep. When he reached the perimeter 
fence he could see that the entire pond was filled and every 
tree and shrub on its bank was dead. Looking up the hill just 
above the pond, you could see the swath of sewage that was the 
source of the spill.
    We immediately notified the City of Port Orchard and the 
State Department of Ecology. They responded and the city came 
out and pumped out the pond, the entire contents into the 
nearby sewer pump station.
    The next step was analyzing how did this occur. We received 
the pump run-time data for the downgrading pump station and 
reviewed it ourselves. The reason we did it ourselves is the 
sewer utility didn't know how. The city had been collecting 
this on a daily basis for years. They visit the pump station 
and read the meters right there on the pump. Through this 
effort we determined the spill had actually started 2 years 
previous, on June 12, 2005. Since that date approximately 6,500 
gallons of sewage per day have been discharging to the 
stormwater pond and nearby wetlands. This means a total of 4.8 
million gallons of sewage had been spilled.
    If the city had an alert system in place, as required by 
this bill, the impacts of this spill on the environment and the 
city Health District response cost could have been 
significantly mitigated. This is why we stand here today in 
support of this bill. We believe it will be a win for public 
health in the environment and in the long term save taxpayer 
money.
    Mr. Bishop. Thank you very much. We will now adjourn to go 
vote, and we will reconvene with questions for our first panel 
as soon as the series of votes are over. There is about three 
votes, so it will probably be at least 20 minutes or 25 minutes 
before we are all back. Thank you very much.
    [Recess.]
    Mr. Bishop. [Presiding.] The Subcommittee will come to 
order.
    Mr. Grumbles, if I may start with you, you indicated in 
your remarks that you talked about the critical importance of 
prevention, and we know that prevention is related to lots of 
things, but perhaps, most importantly, it is related to capital 
expenditures for infrastructure, upgrades and expansion. Yet, 
as you know, we have cut in this administration the funding for 
the State Clean Water Revolving Fund by about 50 percent, which 
clearly impacts on our ability to deal with needed upgrades and 
to cut into the multi-hundred-billion-dollar backlog of unmet 
need in terms of infrastructure. And I understand that that is 
a decision that is taken by the administration and not 
necessarily by the EPA.
    Given that, I was, I guess, surprised to see the comment in 
your testimony that you did not believe that Revolving Fund 
money should be used for the monitoring and used for the public 
notification, because that would reduce the amounts of funding 
available for infrastructure upgrades. So I guess my logic is 
that if we are not going to do the upgrades, therefore we are 
going to have a hard time dealing with the prevention part of 
the puzzle.
    Our next best hope is to deal with public notification and 
to deal with monitoring. If Federal funds cannot be used for 
that, are we going to be able to make the advances that we need 
to make in that area, recognizing that we have not made the 
advances we need to make in infrastructure upgrade?
    Mr. Grumbles. Mr. Chairman, I appreciate the question and 
your comments on the position of eligible uses of the State 
Revolving Fund.
    Our position, quite simply, is the State Revolving Fund 
should be flexible to take into account the many different 
types of capital infrastructure needs, water quality needs of 
communities and States. Really for us it is a question of O&M 
versus capital investment, and what we are saying is, 
essentially, that provision in the bill takes a significant 
departure from current practice and law by making eligible 
something that arguably is really O&M when it comes to 
monitoring and notification.
    The SRF is a critically important tool for infrastructure 
and for funding. It is not the only tool. Permit fees, other 
clean water funding mechanisms, revenues from ratepayers who 
understand the importance of infrastructure, I think, are 
important sources for increased monitoring and reporting and 
recordkeeping as well. So that is really the position we are 
taking on that piece of the bill.
    Mr. Bishop. I thank you for that, and that response leads 
me to a question I wanted to ask Dr. Summers.
    Dr. Summers, one of the goals that Congressman LoBiondo and 
I have in this legislation is that, by virtue of increased 
monitoring and increased public notification, we would build 
public awareness for the needs of our infrastructure, and that, 
therefore, there would be a greater tolerance for funding 
necessary improvements to those needs.
    My question to you is how has the notification and the 
reporting guidelines that are currently in existence in 
Maryland--to what extent has that influenced political support 
for the so-called "flush tax" in the State?
    Mr. Summers. Well, first of all, the flush tax is focused 
on upgrading sewage treatment plants, not the pipes bringing 
the sewage to the plants, but the reporting has certainly 
focused a lot of public attention and a lot of legislative 
interest on this issue virtually every year since we instituted 
this.
    We have been asked to provide briefings to our legislature. 
Maryland has capital funding which is directed towards the 
repair of failing infrastructure. It is not a huge amount of 
funding, but it is very hotly sought, and there is a lot of 
competition amongst our various jurisdictions for that. At the 
same time we instituted our reporting requirements, the 
Governor established a task force on sewage infrastructure, 
which also provided a report and cost estimate.
    So I think the bottom line is that the educational value of 
this reporting has been acknowledged pretty much across the 
board. We found it to be extremely important. I mentioned that 
the director of the Bureau of Water and Wastewater in Baltimore 
City has been very complimentary of this effort and how it has 
helped the city. Likewise, in western Maryland, we have had 
similar comments from public works directors in Frostburg and 
in Cumberland. So it has been well received in that respect.
    Mr. Bishop. Thank you very much. I see my time has expired.
    Congressman LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    For Mr. Grumbles, do you feel the public notification for 
sewer overflows is adequate?
    Mr. Grumbles. A couple of responses.
    One, I feel that this Nation continues to put a greater 
emphasis on public notification, and I think it is through the 
permits themselves. I know when it comes to existing 
regulations that we have under the Clean Water Act, there is no 
specific mention in the regulations on public notification. 
However, positions that the EPA has been taking in the last 
several years have been through policy to include public 
notification in permit writers, considerations for sanitary 
sewer overflows. Also, the CSO policy, as it was codified by 
you and others in 2000, did specifically pick up public 
notification for combined sewer overflows.
    So what we are committing to are continued and important 
discussions on ways to improve and to increase the amount of 
public notification, and one of the best and most flexible ways 
we can do that is through guidance and through working through 
with permit writers throughout the country who are issuing 
these permits for the various community sewer systems.
    Mr. LoBiondo. Do you think anything should be done to 
strengthen public reporting requirements?
    Mr. Grumbles. Well, I think that, from an EPA standpoint, 
continued effort on our part is to educate permit writers--to 
hold workshops. We issued guidance in August specifically for 
that purpose of improving public notification.
    Congressman, I would say we are willing and eager to review 
additional steps, whether it is through, you know, considering 
the various array of approaches to increased public 
notification, a possible regulatory approach through a 
regulation. Right now we have been focused on the policy 
guidance and also the enforcement program. As the enforcement 
office, in working with the Justice Department, enters into 
consent agreements or settlement agreements with communities 
that are violating the Clean Water Act, we do put an emphasis 
on increased public notification and reporting because that is 
a great opportunity to reassure and to get the community more 
invested in their sustainable infrastructure systems.
    Mr. LoBiondo. Thank you.
    Dr. Summers, can you give us any rough idea of what you 
think it costs the State and local authorities in Maryland to 
implement the State's reporting system?
    Mr. Summers. Well, actually we have not compiled cost 
information from the local governments. I really do not have a 
lot of information in that regard. I would say that basically 
they have been able to incorporate this reporting and the 
various steps, in conjunction with the local health 
departments, with existing resources. There has not been a 
major increase in cost that has been reported to us. In fact, 
the reports that we have gotten are positive with the respect 
of it has actually benefited them by allowing them to 
proactively deal with citizen complaints and press reports. It 
has helped them in terms of getting support from their 
commissions or legislatures to finance the improvements to this 
system that are necessary; it has actually built support, but 
that is a question that we could certainly put to a number of 
our jurisdictions, if that would be useful.
    Mr. LoBiondo. I thought it might have been compiled. I 
certainly would not want to give any suggestion or directive to 
go back and to compile that, but it is just a curiosity thing.
    Thank you, Mr. Chairman.
    Mr. Bishop. Thank you, Mr. LoBiondo.
    I am going to exercise the discretion of the Chair and ask 
Mr. Whitford a question.
    Obviously, Kitsap County was somewhat ahead of the curve in 
implementing your reporting and response procedures. Could you 
just tell us what kind of response you got from the local 
sewage agencies? Were they reluctant? If they were, have they 
now come around? What kind of response have you gotten from the 
public?
    Mr. Whitford. The response from the wastewater utilities 
has been great, and trust has been built up over 15 years now, 
so it does take time.
    When mistakes happen, the human thing to do sometimes is to 
try to mitigate it or to hide it, but that has gone away, you 
know, over the years to where now most of the reports that we 
get, except for the one example that I mentioned here, are 
accurate, that what they said happened actually did. So I would 
say that their participation has been great.
    I would say that the public sees the press releases 
constantly, and we get calls of people being very upset about 
that, but they know that we have a program in place to kind of 
detect these things and to warn them, so I think they are very 
appreciative.
    Mr. Bishop. All right. Thank you very much.
    Mr. Bishop. That brings our panel number 1 to a close. 
Thank you all very much for your testimony, and we will now 
move to our second panel.
    Thank you very much. I know, Dr. Lipp, you have a time 
constraint, so we will go to you first, but our second panel is 
comprised of Dr. Erin Lipp, who is an associate professor in 
the Department of Environmental Health Science at the 
University of Georgia; Ms. Katherine Baer, who is the director 
of river advocacy for American Rivers; and Mr. Kevin Shafer, 
who is the executive director of the Milwaukee Metropolitan 
Sewerage District in Milwaukee, Wisconsin.
    So, Dr. Lipp, we will start with you, and we appreciate 
your patience. Thank you.

    TESTIMONY OF ERIN K. LIPP, Ph.D., ASSOCIATE PROFESSOR, 
   DEPARTMENT OF ENVIRONMENTAL HEALTH SCIENCE, UNIVERSITY OF 
  GEORGIA; KATHERINE BAER, DIRECTOR, RIVER ADVOCACY, AMERICAN 
   RIVERS, WASHINGTON, D.C.; AND KEVIN L. SHAFER, EXECUTIVE 
DIRECTOR, MILWAUKEE METROPOLITAN SEWERAGE DISTRICT, MILWAUKEE, 
                           WISCONSIN

    Ms. Lipp. Thank you, and good afternoon, Mr. Chairman and 
Members of the Subcommittee.
    As has already been mentioned, I am an associate professor 
at the College of Public Health at the University of Georgia. I 
am an environmental and public health microbiologist, and my 
research is focused in the area of water quality, microbiology 
and the ecology of waterborne pathogens. For the past decade I 
have been involved in issues associated with pathogens like 
bacteria and viruses in sewage in natural waters in the 
Southeast United States, including rivers, streams, estuaries, 
coastal waters, and coral reefs. I would like to highlight five 
main points this afternoon which relate to the issues of 
waterborne disease, pathogens in sewage and the contamination 
of our Nation's waterways.
    First, the scientific literature shows abundant evidence of 
the role of contaminated waters as a source of infectious 
disease. According to the CDC's most recent reports, there were 
62 outbreaks of disease associated with recreational water and 
30 outbreaks associated with drinking water in 2003 and 2004. 
This affected a reported 5,400 people. However, this does not 
include the many sporadic cases which are not included in those 
reported outbreaks, and it is likely a very considerable 
underestimation of the actual numbers of people who became ill. 
Most cases of diarrhea and vomiting, which are the most common 
symptoms associated with waterborne diseases, are never 
recorded in State and Federal databases because people simply 
do not seek treatment or are not diagnosed.
    For example, one estimate suggests that only about 2.6 
percent of all cases of Salmonella or illnesses with similar 
mild to moderate gastrointestinal distress are ever reported. 
Therefore, the problem of waterborne disease is likely much 
greater than the current data indicate.
    My second point is that sewage contains bacteria, viruses 
and parasites that come directly from infected people in the 
community. Because those infected people may excrete high 
numbers of these microbes while they are ill, sewage can be 
expected to carry high concentrations of numerous pathogenic 
agents. Wastewater treatment can be expected to reduce much of 
it. If raw sewage is released into a waterway, we are depending 
solely on dilution to reduce concentrations.
    For many pathogens, especially protozoa like 
Cryptosporidium or viruses like the cruise ship virus--the 
norovirus--the solution to pollution is simply not dilution. As 
few as one cell or virus can cause disease. To give you an 
example, noroviruses can be detected at concentrations as high 
as 10 million viruses per liter, so that is about twice the 
size of this small bottle of water here. If a milk-carton-sized 
container of sewage were dumped into a body of water about the 
size of a typical backyard swimming pool, there would still be 
around 100 viruses per liter. If a person swimming swallowed as 
little as 2 tablespoons of this water, he would likely ingest 
three viruses, and only one is needed to cause disease.
    My third point is that, because of lack of coordinated 
notification of sewer overflows and data collection during such 
events, we actually have relatively few studies that show a 
direct link between an overflow event, pathogens in the water 
and illness from exposure to those specific pathogens. However, 
there is a variety of research, studies that strongly suggest 
this linkage. I can give you an example from my own research.
    In the summer of 1999, the city of Key West experienced 
significant problems with their deteriorating sewer lines. This 
resulted in multiple and ongoing beach closures. During that 
period about 300 swimmers participated in an annual race around 
Key West. Following this 12-mile swim, 30 percent of swimmers 
reported infections of the eyes, ears, nose or diarrhea. These 
are all symptoms consistent with exposure to sewage-associated 
bacteria and viruses.
    In terms of drinking water, in 2002, the CDC estimated that 
the number one known cause of disease outbreaks from untreated 
groundwater or private wells was the seepage or overflow of 
sewage. Because our Nation's waterways and coastlines do not 
end at State boundaries, someone is always downstream. 
Therefore, Federal efforts to protect our natural water 
resources continue to be a laudable and achievable goal. 
Including public health and agency notification of sewer spills 
is clearly in the spirit of the Clean Water Act goals to 
maintain fishable and swimmable waters.
    Finally, I would like to make one last note, which is that 
research and regulations that support improved water quality 
guidelines that encompass the array of pathogens that can 
threaten human and ecosystem health would also allow for better 
management in the case of overflows or seepage of sewage. Along 
with public notification of sewer overflows, increased data 
collection on specific pathogens in our water and the 
surveillance of associated diseases, especially among our most 
vulnerable populations, are needed. To better implement 
strategies that effectively protect public health and our 
aquatic resources, we need to know what we are dealing with.
    In 1996, the EPA implemented the Information Collection 
Rule to determine the level of specific pathogens in source 
water prior to treatment for drinking. This collection period 
provided critical baseline information on the abundance of 
specific pathogens and allowed treatment plants to optimize 
practices to best reduce these agents. A similar information 
collection tool for sewage would, likewise, aid both treatment 
plant operators to optimize for pathogens, rather than the 
indicator system that they currently use, and those responsible 
for protecting our public health by giving them the knowledge 
of what pathogens were probably in the sewage when an overflow 
occurred, applying appropriate risk-assessment models to 
determine risk to the overall population and to our vulnerable 
populations, and finally, to determine which actions could best 
mitigate the problems.
    Thank you.
    Mr. Bishop. Thank you very much.
    Dr. Lipp, so that you may catch your plane, and with the 
indulgence of my colleagues, we will submit our questions for 
you in writing, and then we would appreciate a written 
response. Thank you very much.
    Ms. Lipp. All right.
    Mr. Bishop. Again, thank you for your patience.
    Ms. Lipp. Thank you very much.
    Mr. Bishop. We will now move to Katherine Baer of American 
Rivers.
    Ms. Baer. Good afternoon, Chairman Bishop, Ranking Member 
LoBiondo and Members of the Subcommittee.
    My name is Katherine Baer. I am director of American Rivers 
Healthy Water Campaign. I appreciate the opportunity to appear 
before you today in support of H.R. 2452, the Raw Sewage 
Overflow Community Right-to-Know Act. I would also certainly 
like to thank you both for your leadership in introducing this 
important legislation.
    As sewers continue to overflow or to spill on a regular 
basis, citizens have a basic right to know when it is unsafe to 
swim or to play in local waters--streams, rivers and lakes. 
Just as we are alerted to code red unhealthy air days or to 
contaminated food--as you can remember in the case of when the 
bagged spinach was pulled so quickly off the store shelves in 
2006--we similarly have a right to know about the sewage spills 
that can affect our health.
    I will make four brief points today in support of H.R. 
2452. First, the contact with sewage is a serious public health 
threat that must be addressed. I think Dr. Lipp described it 
well. Every year many Americans and their loved ones risk 
serious illness, such as diarrhea and ear infections, when 
untreated sewage seeps into the water they use for recreation 
and drinking. In rare cases contact with untreated sewage can 
lead to more chronic conditions, including liver failure and 
cancer. Individuals, especially children and the elderly, 
become ill from contaminated recreational waters through 
ingestion or contact with ears, eyes, nose, and skin.
    According to EPA estimates, up to 3.5 million people become 
ill from contact with raw sewage from sanitary sewer overflows 
alone each year. However, the number of illnesses caused by 
untreated sewage could be much higher due to underreporting. 
For example, a recent study found that up to 1.5 million people 
get gastroenteritis at two beaches in California alone each 
year.
    My second point is that current Federal policy does not 
require public notification, leaving people at risk. Currently 
Federal public notification or right-to-know requirements for 
sewage are almost nonexistent. There are no requirements for 
public notification for sanitary sewer overflows, and 
compliance with the combined sewer overflow policy is highly 
variable, leaving people at risk.
    State requirements, where they exist, are also highly 
variable. While some States like we have heard from today, like 
Maryland, and others such as Michigan, and individual cities 
have excellent public notification programs, many do not. For 
example, South Carolina, Louisiana, Tennessee, Kentucky, 
Virginia, and many others do not have any statewide public 
notification requirements at all. The bill will create a 
consistent Federal minimum requirement that will level the 
playing field to better protect all Americans.
    Third, H.R. 2452 provides a straightforward, commonsense 
solution by requiring monitoring and notification to protect 
the public from sewer spills. The bill would provide an 
enforceable, consistent baseline, providing a safety net for 
everyone. H.R. 2452 requires publicly owned treatment works to 
use a monitoring system, technology or a management program to 
alert the owner or operator of an overflow.
    Just as cars have "check engine" lights, wastewater 
treatment systems should also have monitoring systems to inform 
them of potential problems. The bill allows a system to choose 
from a great range of monitoring techniques currently 
available.
    The bill also requires POTWs to notify the public when 
there is a sewage overflow with the potential to threaten human 
health so that people can avoid the risk of becoming ill. 
Notification must take place as soon as practicable, but not 
later than 24 hours after the owner or operator becomes aware 
of the spill. This timeliness component is, of course, 
important in order to really protect public health.
    Fourth and finally, some cities and utilities are already 
doing an excellent job of notifying the public, using a variety 
of mechanisms, showing both that notification can be achieved, 
and that it is also an important part of sound management and 
community safety. Communities like Anne Arundel County, 
Maryland, and Milwaukee, Wisconsin, illustrate that strong 
monitoring and public notification is viable. There are a 
variety of public notification methods that can be used 
separately or in combination to reach the broadest possible 
audience in a timely manner.
    Public health agencies must also be notified when there is 
an imminent threat to the public. In some States and in some 
places like you have heard today, they are already involved in 
public outreach.
    H.R. 2452 allows each State or community to tailor a 
program to best reach the local population. Notification is not 
intended to be one-size-fits-all, and it should be designed 
with the end goal of protecting public health in the most 
effective way possible.
    In closing, knowledge is a powerful first line of defense 
that public notification can provide to keep us healthy while 
we continue to work for the solutions to reduce sewage 
pollution. We will continue to work hard with Members of 
Congress and with those in the wastewater treatment community 
to advocate for more funding for clean water infrastructure. In 
the meantime, however, public notification of sewage spills is 
essential so that people can protect themselves and their 
families from getting sick, while also galvanizing support for 
the solutions needed to reduce sewage pollution as mentioned by 
Dr. Summers in his testimony.
    Finally, I would like to submit, as part of my testimony, 
two letters, one from the CEOs of nine environmental 
organizations and the other from four national public health 
organizations, in support of this bill, as well as American 
Rivers' report on the status of public notification in 11 U.S. 
States.
    We urge the Committee to move this bill, and we are 
strongly in support of it. Thank you for this opportunity to 
testify on H.R. 2452, and I look forward to any questions you 
may have.
    Mr. Bishop. Thank you very much, and your additions will be 
made part of the record. Thank you.
    Mr. Shafer.
    Mr. Shafer. Good afternoon, Chairman Bishop, Ranking Member 
LoBiondo and Members of the Water Resources Subcommittee.
    I am Kevin Shafer, executive director of the Milwaukee 
Metropolitan Sewerage District, MMSD, and treasurer of the 
National Association of Clean Water Agencies, NACWA.
    Thank you for your leadership on clean water issues. I 
appreciate the opportunity to testify here today on the Raw 
Sewage Overflow Community Right-to-Know Act of 2007. This 
legislation is designed to achieve an important goal: ensuring 
the public's right to know about events that could impact their 
health and their environment. It is a goal that we in the clean 
water community endeavor to meet every single day.
    At home in Milwaukee, I, like others, have kids who thrive 
around our great Lake Michigan and the other area waterways. I 
want to know and my neighbors want to know that our children 
are playing in water that will not make them sick. It is of the 
utmost importance for us to know this, and we take this 
reporting challenge very seriously at the MMSD.
    Before I discuss H.R. 2452 from a national perspective, I 
would like to tell you about how Milwaukee achieves these 
challenges. Fortunately, in Milwaukee, we have an extensive 
monitoring program that has been in place for over 10 years 
that we feel exceeds the H.R. 2452 requirements. In the 1980s 
and 1990s, Milwaukee spent nearly $3 billion to reinforce our 
sewer system to protect Lake Michigan. As part of that program, 
we built a 19.4-mile-long, 405-million-gallon tunnel system 
that captures flows from both the combined sewer and separate 
sanitary sewer systems. Additionally, in 2006, we completed an 
89-million-gallon deep tunnel that is devoted solely to 
separate sewage, and we are currently constructing another 
tunnel that will add 27 million gallons more to our regional 
system. These tunnels store the water until our treatment 
plants can treat it.
    Our stewardship of the water environment is impressive. 
Since the first tunnel became operational in 1994, we have 
reduced the number of combined sewer overflows from an average 
of approximately 60 in 1994 to an average of 2 in 2007. We have 
also reduced separate sewer overflows from an average of 
approximately 25 in 1994 to an average of about 2 by 2007, but 
we do still have overflows, and we are working diligently every 
day to address this.
    We are also continually improving our extensive monitoring 
and notification programs. The monitoring system that was 
installed in 1994 provided a regional umbrella coverage for our 
sewer system. Currently MMSD is upgrading this system with a 
$50 million, state-of-the-art technology that will help us 
drill down into the local system. This updated system will 
further help MMSD maximize the use of its wastewater storage 
systems and treatment plant capacity.
    In Milwaukee we are protecting our citizens and the 
environment, and we take that seriously and strive to 
overreport these occurrences. What I mean by this is we notify 
not only our regulators, the Wisconsin Department of Natural 
Resources, of an overflow event as required, but we also notify 
the public health department, local media outlets, and 
scientists at the University of Wisconsin-Great Lakes WATER 
Institute, which uses these occurrences as opportunities to 
gather realtime scientific data to help us plan for our future 
water quality improvements.
    Additionally, during a storm, even before a sewer overflow 
might occur, we have posted on our Web site, www.mmsd.com, a 
storm update page which shows in realtime the volumes of 
wastewater and sewage we have kept from overflowing. During 
these large events, the public can log onto our system and see 
the status every 5 minutes. If we do have an overflow in our 
system during very large storms, we report this immediately on 
our Web site. As I said earlier, we take this challenge very 
seriously.
    Milwaukee and a few other utilities may be unique in our 
approach to monitoring and reporting, and from a national 
perspective, it is important to remember that every wastewater 
utility in the United States is different. Therefore, this 
issue should be treated as an ongoing partnership between the 
Federal, State and local governments because it is important on 
so many fronts to make sure that what is proposed actually 
helps solve the problem. It is critical to underscore that 
meeting the Clean Water Act's goals requires a sustainable 
partnership among all levels of government and a significant 
recommitment of resources from the Federal Government in 
particular.
    Our Nation now faces serious long-term funding shortfalls 
to meet its vital water and wastewater infrastructure needs. 
According to EPA and other Federal agencies, the Nation faces a 
$300 billion to $500 billion water infrastructure funding gap 
over the next 20 years. It is in this context that we must 
consider H.R. 2452.
    Sewer overflows continue to pose one of the biggest single 
challenges to clean water managers everywhere. The infiltration 
and inflow of stormwater into sewer systems is a primary cause 
of sanitary sewer overflows, and it is very difficult from an 
engineering perspective and costly to eliminate all together. 
Most NACWA members are already subject to detection, 
notification, reporting, and recordkeeping requirements imposed 
by EPA's part 122 regulations and the SSO facts sheet.
    Communities with combined sewer systems must implement 
monitoring and notification programs for overflows as part of 
their nine minimum controls for the CSO policy adopted in 1994. 
Any additional Federal legislation on monitoring and reporting 
should acknowledge the programs that are already in place and 
ensure that any new programs do not interfere with existing 
efforts or impose duplicative, unnecessary and often costly 
mandates.
    H.R. 2452 also states that all overflows with the potential 
to harm public health would trigger the notification 
requirements. Some NACWA members have expressed concern that 
even minor spills of a few gallons that can occur during the 
system routine maintenance of a sewer line could meet that 
notification.
    Mr. Bishop. Mr. Shafer, if you could wrap up, please.
    Mr. Shafer. I will.
    Mr. Bishop. Thank you.
    Mr. Shafer. Sorry.
    NACWA believes that a comprehensive rather than a piecemeal 
approach to SSOs is needed. The EPA should promulgate SSO 
control regulations similar to the CSO control policy as they 
did in 1994. In 2001, the EPA attempted to use such a 
regulation that broadly addressed the management and reduction 
of SSOs.
    Finally, to further help cities address wet weather and 
other critical clean water infrastructure challenges, Congress 
should establish a sustainable, national clean water trust 
fund.
    As we approach the 35th anniversary of the Clean Water Act, 
it is vital that we recall that success so far has been 
achieved through a Federal, State and local partnership. We 
look forward to working with you to ensure its continued 
progress and in improving the health of our Nation's waters, 
and I look forward to answering your questions.
    Thank you.
    Mr. Bishop. Thank you very much.
    My first question is for both Ms. Baer and Mr. Shafer.
    Ms. Baer, you have testified that H.R. 2452 is designed to 
allow each State or community to tailor its own program to meet 
the specific needs of their individual communities so as to 
avoid a one-size-fits-all approach, which is precisely what Mr. 
LoBiondo and I had in mind when we worked on the bill.
    Mr. Shafer, you have described the very same legislation as 
a one-size-fits-all approach.
    So we obviously have a conflict here, and I would wonder if 
you could each expand on your positions on what apparently is, 
you know, a disagreement.
    Ms. Baer. Well, the bill requires notification of the 
public, but it does not actually define how this could be done. 
As you have heard from Mr. Shafer and from some of the other 
panelists, and as we have found in our research across the 
country, there are a number of excellent mechanisms, such as 
Web site alerts, postings, phone hotlines. There are a lot of 
different ways to notify people to most effectively reach them, 
given who is in your community and who is out using the water.
    So my reading of the bill certainly does not mandate any 
sort of type. It is not intended to be heavy-handed, nor is 
it--and it should be left open so that we can further define 
and let communities best tailor it to really make sure people 
have a right to know.
    Mr. Bishop. Thank you.
    Mr. Shafer.
    Mr. Shafer. I am not sure there is really any conflict. We 
agree that we need to look at these issues, and, you know, we 
feel that, as we move forward, we need to work together, but we 
do know that every system is different. Some systems are as 
large as Dallas', which is very large, versus Milwaukee's, 
versus very small systems.
    So one of the concerns is maybe that there is not enough 
definition in this, and that that may be something that we 
could ask the EPA, which is to add more definition so that it 
would make some of the various members of NACWA feel more 
comfortable with the requirements. But we are in support of 
notifying the public, and we just need to make sure that there 
is more definition added to this issue.
    We are a little concerned that there may already be 
reporting requirements there through the CSO policy of 1994 and 
the EPA's work with the SSO facts sheet, and we just do not 
want to be duplicative with something that is already there.
    Mr. Bishop. It seems to me that our goal is to achieve 
nationally what you have achieved in Milwaukee. I mean, you 
clearly are presiding over a first-rate system, and as I read 
your testimony, I was a little surprised because you seem to 
be--no pun intended--lukewarm on H.R. 2452. Tell me why. I 
mean, is it because of your concern about duplicative 
requirements?
    Mr. Shafer. Absolutely, and it is also something where, in 
2001, the EPA had promulgated a rule for SSOs that was never 
moved forward, and we need to be able to look at this in a 
comprehensive manner. Just like with watershed approaches, we 
need to look at everything in a comprehensive manner. We need 
comprehensive SSO guidance from the agency so that we can 
address all of these issues in a cohesive fashion, and we need 
to fund that as well.
    So I would not say we are lukewarm to it. We just need to 
make sure that we do not overlap with existing regulations that 
are there, and we need to work with all of the organizations 
similar to what we did with some of the other wet weather 
approaches that we have addressed--that "NACWA," when I say 
"we," has addressed, and that we move forward in a cohesive 
fashion to address these issues.
    Mr. Bishop. Thank you.
    My last question: Ms. Baer, in his testimony earlier, 
Administrator Grumbles indicated that he thought the best 
approach to public notification of sewer overflows would be 
that of flexibility to utilize existing guidance and working 
with permit writers to include notification requirements in the 
NPDES permits.
    Do you agree with that approach, or would you take a 
different approach?
    Ms. Baer. I think we believe that the current policy is 
insufficient to protect public health, and while we certainly 
appreciate Mr. Grumbles' efforts to move things forward through 
policy, so far this has not actually achieved its goals, and we 
know that many people are still at risk. I can give you 
specific stories from across the country.
    Even earlier this year in Florida, 200,000 gallons of 
sewage spilled into a stream that went into the Tampa Bay. 
Local residents were out in the water and did not know about it 
until the media came and told them 2 days later. We see 
complaints like this around the country.
    So, even though I think it is important to take a flexible 
approach and work with communities and permit writers, H.R. 
2452 is critical to making sure there is a requirement 
nationwide and is consistent to protect public health.
    Mr. Bishop. Thank you very much.
    Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    I thank our panel members for being here today. I 
appreciate your testimony.
    For Ms. Baer, I have had a couple of questions posed to me 
which I am going to pose to you, because I think you would have 
a better way of answering them than I would.
    I was asked, why focus on public notification? Why not 
focus on actively trying to reduce the amount of sewage 
pollution going into our waterways?
    Ms. Baer. I think it is a good question because, as we 
pointed out, there still is a lot of sewage pollution, 
unfortunately, going into our waterways.
    The way we see it is that right now we have an important 
public health threat that needs to be addressed that this bill 
addresses, but this bill also provides a great benefit that Dr. 
Summers really explained quite well, that it will galvanize 
support for the many solutions that we know are needed to raise 
the infrastructure investment in the clean water 
infrastructure.
    So we see this as an important step right now to address 
public health concerns, while we also continue to seek the 
solutions and to fight hard and to work with others in the 
wastewater treatment community and in the public health 
community to make sure there is enough money, enough funding, 
and resources to actually improve our infrastructure.
    Mr. LoBiondo. Another question that was posed to me: How do 
I know that there are not effective notification systems in 
most places? Why do we need legislation to fill the gap if we 
do not know for sure?
    Ms. Baer. Our own analysis of 11 States, as well as other 
reports that have looked at States and the Great Lakes, Florida 
and across the country, have shown that there really is a gap. 
We know the States I mentioned do not have any public 
notification policies at all, and so we are finding, both from 
looking actually at the policy as well as hearing of stories 
where we know people are, unfortunately, in streams and creeks 
when there is a sewage spill and they do not know about it, 
that there is this need for a Federal consistent minimum, and 
it is wonderful that some communities are already doing this, 
and because they would surpass those Federal requirements, 
those programs would remain in place.
    Mr. LoBiondo. Thank you.
    Mr. Shafer, as Chairman Bishop indicated, you have kind of 
got the gold standard in Milwaukee of what we would like to see 
in a lot of other places.
    Can you tell us a little bit about what is involved with 
your monitoring system? What kind of equipment? Do you have any 
handle on what the costs were to get to the point where you are 
now?
    Mr. Shafer. We may have a gold-plated system, but there is 
always something that we can improve on. We always need to look 
at our system and see if we can improve.
    We spent about $50 million on various improvements to the 
instrumentation in our system and on the controls in our 
system. We have approximately 14 pump stations where we have 
indicators that, when a pump kicks on and starts overflowing to 
a creek, we know it immediately. We also have level indicators 
throughout the system so that, as the depth in the pipe gets 
above certain critical elevations, we know it immediately, and 
we have area velocity meters throughout our system so we can 
compute the flow and the velocity coming to our treatment 
plants. We also have a deep tunnel system that I testified to 
that has gates where we can measure the flow at those points, 
and at certain critical elevations we have to close those 
gates.
    We have a very intelligent system that allows us, through a 
central control system, to monitor over 300 miles of pipe that 
we can see flows, velocities and depths. Then, if we have an 
overflow, we report it immediately to the various regulators, 
to the public health department and to our public through our 
Web site.
    Mr. LoBiondo. Do you feel the age of your pipe is any kind 
of a problem for you?
    Mr. Shafer. The age of pipe is always a problem for a 
community the age of Milwaukee, and we are continually trying 
to either reline those pipes or replace those pipes. So capital 
improvements, as was stated earlier, preventing the overflow up 
front is the most important goal of all clean water agencies. 
That is done through good management, good asset management, 
and good capital improvement programs. So funding those 
programs is critical, the age of pipe is critical, and you need 
to always monitor the system very closely.
    Mr. LoBiondo. Thank you.
    Mr. Bishop. Thank you.
    Mr. Boozman.
    Mr. Boozman. Thank you, Mr. Chairman.
    I just am curious. I know that we are referring to, you 
know, the combined and the sanitary sewer overflows.
    In regard, though, to the problem of raw sewage, what part 
do septic tanks play in the picture? Do you have any idea, Ms. 
Baer?
    Do you all have septic tanks in your community, Mr. Shafer? 
Is that a thing of the past or----
    Mr. Shafer. We do not have septic in----
    Mr. Boozman. No. Around a lot of the rivers and lakes and 
streams and things in rural areas, you know, that is a 
significant component. Again, I just was curious if you knew 
what percentage the raw sewage problem was in that regard.
    Ms. Baer. I do not have that information. I would be glad 
to respond to you in writing. I do know septic is a proportion 
of it, and this bill focused more on the big volume spills, 
which are more often from the----
    Mr. Boozman. You mentioned the volume of the--and again, I 
am just curious. I believe Dr. Lipp talked about pouring like a 
cup or a cup and a half into a swimming pool, and then you 
mentioned the 200,000 gallons into Tampa Bay.
    Can you make a comparison in the swimming pool there? Is 
that like a thimble, or is that like a 5-gallon bucket?
    Ms. Baer. I am afraid I would have to get out my calculator 
to figure that one out for you. I can get back to you. I do not 
know.
    Mr. Boozman. Okay. Good.
    Well, again, thank you, Mr. Chairman. Thank you.
    Mr. Bishop. Thank you very much.
    If there are no more questions, I will dismiss the second 
panel with our thanks. Thank you very much.
    [Whereupon, at 4:25 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 38516.008
    
    [GRAPHIC] [TIFF OMITTED] 38516.009
    
    [GRAPHIC] [TIFF OMITTED] 38516.010
    
    [GRAPHIC] [TIFF OMITTED] 38516.011
    
    [GRAPHIC] [TIFF OMITTED] 38516.012
    
    [GRAPHIC] [TIFF OMITTED] 38516.013
    
    [GRAPHIC] [TIFF OMITTED] 38516.014
    
    [GRAPHIC] [TIFF OMITTED] 38516.015
    
    [GRAPHIC] [TIFF OMITTED] 38516.016
    
    [GRAPHIC] [TIFF OMITTED] 38516.017
    
    [GRAPHIC] [TIFF OMITTED] 38516.018
    
    [GRAPHIC] [TIFF OMITTED] 38516.019
    
    [GRAPHIC] [TIFF OMITTED] 38516.020
    
    [GRAPHIC] [TIFF OMITTED] 38516.021
    
    [GRAPHIC] [TIFF OMITTED] 38516.022
    
    [GRAPHIC] [TIFF OMITTED] 38516.023
    
    [GRAPHIC] [TIFF OMITTED] 38516.024
    
    [GRAPHIC] [TIFF OMITTED] 38516.025
    
    [GRAPHIC] [TIFF OMITTED] 38516.026
    
    [GRAPHIC] [TIFF OMITTED] 38516.027
    
    [GRAPHIC] [TIFF OMITTED] 38516.028
    
    [GRAPHIC] [TIFF OMITTED] 38516.029
    
    [GRAPHIC] [TIFF OMITTED] 38516.030
    
    [GRAPHIC] [TIFF OMITTED] 38516.031
    
    [GRAPHIC] [TIFF OMITTED] 38516.032
    
    [GRAPHIC] [TIFF OMITTED] 38516.033
    
    [GRAPHIC] [TIFF OMITTED] 38516.034
    
    [GRAPHIC] [TIFF OMITTED] 38516.035
    
    [GRAPHIC] [TIFF OMITTED] 38516.036
    
    [GRAPHIC] [TIFF OMITTED] 38516.037
    
    [GRAPHIC] [TIFF OMITTED] 38516.038
    
    [GRAPHIC] [TIFF OMITTED] 38516.039
    
    [GRAPHIC] [TIFF OMITTED] 38516.040
    
    [GRAPHIC] [TIFF OMITTED] 38516.041
    
    [GRAPHIC] [TIFF OMITTED] 38516.042
    
    [GRAPHIC] [TIFF OMITTED] 38516.043
    
    [GRAPHIC] [TIFF OMITTED] 38516.044
    
    [GRAPHIC] [TIFF OMITTED] 38516.045
    
    [GRAPHIC] [TIFF OMITTED] 38516.046
    
    [GRAPHIC] [TIFF OMITTED] 38516.047
    
    [GRAPHIC] [TIFF OMITTED] 38516.048
    
    [GRAPHIC] [TIFF OMITTED] 38516.049
    
    [GRAPHIC] [TIFF OMITTED] 38516.050
    
    [GRAPHIC] [TIFF OMITTED] 38516.051
    
    [GRAPHIC] [TIFF OMITTED] 38516.052
    
    [GRAPHIC] [TIFF OMITTED] 38516.053
    
    [GRAPHIC] [TIFF OMITTED] 38516.054
    
    [GRAPHIC] [TIFF OMITTED] 38516.055
    
    [GRAPHIC] [TIFF OMITTED] 38516.056
    
    [GRAPHIC] [TIFF OMITTED] 38516.057
    
    [GRAPHIC] [TIFF OMITTED] 38516.058
    
    [GRAPHIC] [TIFF OMITTED] 38516.059
    
    [GRAPHIC] [TIFF OMITTED] 38516.060
    
    [GRAPHIC] [TIFF OMITTED] 38516.061
    
    [GRAPHIC] [TIFF OMITTED] 38516.062
    
    [GRAPHIC] [TIFF OMITTED] 38516.063
    
    [GRAPHIC] [TIFF OMITTED] 38516.064
    
    [GRAPHIC] [TIFF OMITTED] 38516.065
    
    [GRAPHIC] [TIFF OMITTED] 38516.066
    
    [GRAPHIC] [TIFF OMITTED] 38516.067
    
    [GRAPHIC] [TIFF OMITTED] 38516.068
    
    [GRAPHIC] [TIFF OMITTED] 38516.069
    
    [GRAPHIC] [TIFF OMITTED] 38516.070
    
    [GRAPHIC] [TIFF OMITTED] 38516.071
    
    [GRAPHIC] [TIFF OMITTED] 38516.072
    
    [GRAPHIC] [TIFF OMITTED] 38516.073
    
    [GRAPHIC] [TIFF OMITTED] 38516.074
    
    [GRAPHIC] [TIFF OMITTED] 38516.075
    
    [GRAPHIC] [TIFF OMITTED] 38516.076
    
    [GRAPHIC] [TIFF OMITTED] 38516.077
    
    [GRAPHIC] [TIFF OMITTED] 38516.078
    
    [GRAPHIC] [TIFF OMITTED] 38516.079
    
    [GRAPHIC] [TIFF OMITTED] 38516.080
    
    [GRAPHIC] [TIFF OMITTED] 38516.081
    
    [GRAPHIC] [TIFF OMITTED] 38516.082
    
    [GRAPHIC] [TIFF OMITTED] 38516.083
    
    [GRAPHIC] [TIFF OMITTED] 38516.084
    
    [GRAPHIC] [TIFF OMITTED] 38516.085
    
    [GRAPHIC] [TIFF OMITTED] 38516.086
    
    [GRAPHIC] [TIFF OMITTED] 38516.087
    
    [GRAPHIC] [TIFF OMITTED] 38516.088
    
    [GRAPHIC] [TIFF OMITTED] 38516.089
    
    [GRAPHIC] [TIFF OMITTED] 38516.090
    
    [GRAPHIC] [TIFF OMITTED] 38516.091
    
    [GRAPHIC] [TIFF OMITTED] 38516.092
    
    [GRAPHIC] [TIFF OMITTED] 38516.093
    
    [GRAPHIC] [TIFF OMITTED] 38516.094
    
    [GRAPHIC] [TIFF OMITTED] 38516.095
    
    [GRAPHIC] [TIFF OMITTED] 38516.096
    
    [GRAPHIC] [TIFF OMITTED] 38516.097
    
    [GRAPHIC] [TIFF OMITTED] 38516.098
    
    [GRAPHIC] [TIFF OMITTED] 38516.099
    
    [GRAPHIC] [TIFF OMITTED] 38516.100
    
    [GRAPHIC] [TIFF OMITTED] 38516.101
    
    [GRAPHIC] [TIFF OMITTED] 38516.102
    
    [GRAPHIC] [TIFF OMITTED] 38516.103
    
    [GRAPHIC] [TIFF OMITTED] 38516.104
    
    [GRAPHIC] [TIFF OMITTED] 38516.105
    
    [GRAPHIC] [TIFF OMITTED] 38516.106
    
    [GRAPHIC] [TIFF OMITTED] 38516.107
    
    [GRAPHIC] [TIFF OMITTED] 38516.108
    
    [GRAPHIC] [TIFF OMITTED] 38516.109
    
    [GRAPHIC] [TIFF OMITTED] 38516.110
    
    [GRAPHIC] [TIFF OMITTED] 38516.111
    
    [GRAPHIC] [TIFF OMITTED] 38516.112
    
    [GRAPHIC] [TIFF OMITTED] 38516.113
    
    [GRAPHIC] [TIFF OMITTED] 38516.114
    
    [GRAPHIC] [TIFF OMITTED] 38516.115
    
    [GRAPHIC] [TIFF OMITTED] 38516.116
    
    [GRAPHIC] [TIFF OMITTED] 38516.117
    
    [GRAPHIC] [TIFF OMITTED] 38516.118
    
    [GRAPHIC] [TIFF OMITTED] 38516.119
    
    [GRAPHIC] [TIFF OMITTED] 38516.120
    
    [GRAPHIC] [TIFF OMITTED] 38516.121
    
    [GRAPHIC] [TIFF OMITTED] 38516.122
    
    [GRAPHIC] [TIFF OMITTED] 38516.123
    
    [GRAPHIC] [TIFF OMITTED] 38516.124
    
    [GRAPHIC] [TIFF OMITTED] 38516.125
    
    [GRAPHIC] [TIFF OMITTED] 38516.126
    
    [GRAPHIC] [TIFF OMITTED] 38516.127
    
    [GRAPHIC] [TIFF OMITTED] 38516.128
    
    [GRAPHIC] [TIFF OMITTED] 38516.129
    
    [GRAPHIC] [TIFF OMITTED] 38516.130
    
    [GRAPHIC] [TIFF OMITTED] 38516.131
    
    [GRAPHIC] [TIFF OMITTED] 38516.132
    
    [GRAPHIC] [TIFF OMITTED] 38516.133
    
    [GRAPHIC] [TIFF OMITTED] 38516.134
    
    [GRAPHIC] [TIFF OMITTED] 38516.135
    
    [GRAPHIC] [TIFF OMITTED] 38516.136
    
    [GRAPHIC] [TIFF OMITTED] 38516.137
    
    [GRAPHIC] [TIFF OMITTED] 38516.138
    
    [GRAPHIC] [TIFF OMITTED] 38516.139
    
    [GRAPHIC] [TIFF OMITTED] 38516.140
    
    [GRAPHIC] [TIFF OMITTED] 38516.141
    
    [GRAPHIC] [TIFF OMITTED] 38516.142
    
                                    

</pre></body></html>
